<html>
<title> - THE STATUS AND OUTLOOK FOR CYBERSECURITY EFFORTS IN THE ENERGY INDUSTRY</title>
<body><pre>[Senate Hearing 116-247]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-247
 
THE STATUS AND OUTLOOK FOR CYBERSECURITY EFFORTS IN THE ENERGY INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2019

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


                       Printed for the use of the
               Committee on Energy and Natural Resources
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                              ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-555              WASHINGTON : 2020        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                      Jed Dearborn, Senior Counsel
                    Robert Ivanauskas, FERC Detailee
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Gillers, Democratic Senior Counsel
          Brie Van Cleve, Democratic Professional Staff Member
          
          
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                               WITNESSES

Chatterjee, Hon. Neil, Chairman, Federal Energy Regulatory 
  Commission.....................................................     5
Evans, Hon. Karen S., Assistant Secretary, Office of 
  Cybersecurity, Energy Security, and Emergency Response, U.S. 
  Department of Energy...........................................     9
Keber, Major William J., Executive Officer, West Virginia 
  National Guard's Critical Infrastructure Protection Battalion..    19
Robb, James B., President and Chief Executive Officer, North 
  American Electric Reliability Corporation......................    24
Whitehead, David Edward, Chief Operating Officer, Schweitzer 
  Engineering Laboratories, Inc..................................    34

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Chatterjee, Hon. Neil:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    68
Evans, Hon. Karen S.:
    Opening Statement............................................     9
    Written Testimony............................................    11
    Responses to Questions for the Record........................    75
Keber, Major William J.:
    Opening Statement............................................    19
    Written Testimony............................................    21
    Responses to Questions for the Record........................    99
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Robb, James B.:
    Opening Statement............................................    24
    Written Testimony............................................    26
    Responses to Questions for the Record........................   164
Whitehead, David E.:
    Opening Statement............................................    34
    Written Testimony............................................    36
    Responses to Questions for the Record........................   170


                       THE STATUS AND OUTLOOK FOR

                        CYBERSECURITY EFFORTS IN

                          THE ENERGY INDUSTRY

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    I will just note for the record that today is Valentine's 
Day.
    Senator Manchin. Happy Valentine's.
    The Chairman. Thank you.
    Some people celebrate it with flowers and chocolate. It is 
actually my son's birthday, so we observe it as a birthday 
rather than flowers and chocolate today.
    But here at the Energy Committee what we prefer to do is 
take a deep dive into the very real cyber threats that face our 
electric grid system. Here is the punchline everyone, hold on. 
After all, nothing says love like ensuring the security of our 
critical energy infrastructure. So that is our Valentine's 
statement for the morning from the Energy and Natural Resources 
Committee. You have to love the script writers back here.
    [Laughter.]
    Last week we had a chance to examine the state of energy 
markets and the promise of clean energy innovation. Both of 
these hearings, great hearings by the way, highlighted the 
increased automation and the digitalization of energy 
technologies. While advances in technology are always welcome 
and can help us run things more efficiently, each new digital 
connection opens a potential pathway for bad actors to disrupt 
our energy delivery.
    We know that the threat of cyberattacks by our foreign 
adversaries and other sophisticated entities is real and it is 
growing. Last month's 2019 Worldwide Threat Assessment detailed 
how China, Russia and other foreign adversaries are using cyber 
operations to target our military and our critical 
infrastructure. The assessment notes that our electric grid and 
natural gas pipelines are particularly vulnerable to attack and 
that Russia is mapping our infrastructure with the long-term 
goal of causing substantial damage.
    Unfortunately, we have already seen the real-world 
ramifications of cyberattacks on energy infrastructure. Back in 
December 2015, Russian hackers cut off power to nearly a 
quarter-million people in Ukraine. And in the summer of 2017, 
Russian hackers infiltrated the industrial control system of a 
Saudi Arabian petrochemical plant and disabled the plant's 
safety systems.
    We cannot let a similar attack happen in the United States. 
Our grid system is `uniquely critical' and the consequences of 
a successful cyber incursion would be widespread and 
devastating. The resulting loss of power could impact 
hospitals, banks, cell phone service, gas pumps, traffic 
lights, you name it.
    The government's focus on cybersecurity, in partnership 
with industry, is a major reason that the United States has not 
experienced an attack like Ukraine's. In the 2005 Energy Policy 
Act, Congress created the Electric Reliability Organization. We 
have since certified it as NERC and mandated reliability 
standards to be developed through an industry stakeholder 
process. Protecting our nation's critical assets is a shared 
responsibility, with federal, state, and private sector 
partners working together to improve cyber defenses and 
coordinate responses to cyberattacks.
    The 2015 FAST Act enacted provisions authored by this 
Committee to codify the Department of Energy (DOE) as the 
sector-specific agency for energy sector cybersecurity and 
provide the Secretary with authority to address grid-related 
emergencies. We also enacted provisions to facilitate greater 
information sharing by protecting sensitive information from 
disclosure.
    The Administration is taking steps to address emerging 
cyber threats. Last year, DOE established the new Office of 
Cybersecurity, Energy Security, and Emergency Response, known 
as ``CESER.'' I look forward to learning more about the work 
that is being done by this office. Assistant Secretary Evans 
has been on the job for about six months, so gaining her 
perspective this morning is going to be very useful for us.
    The Department is also partnering with FERC to find 
solutions to energy infrastructure threats. Next month the 
agencies will co-host a technical conference to discuss current 
and emerging cyber and physical security threats, as well as 
ways to incentivize cybersecurity investments. It is important 
that we are seeing these agencies prioritize cybersecurity and 
plan this conference very closely together.
    I am pleased to welcome a very distinguished panel this 
morning. We have Chairman Neil Chatterjee from the Federal 
Energy Regulatory Commission (FERC). We appreciate your 
leadership at the Commission and look forward to your comments 
this morning. I have already mentioned Karen Evans, the 
Assistant Secretary at the Department of Energy working in 
CESER. From the North American Electric Reliability 
Corporation, or NERC, we have Mr. James Robb. We have David 
Whitehead from Schweitzer Engineering Labs (SEL), and we have 
Major William Keber from the West Virginia National Guard 
Critical Infrastructure Protection Battalion.
    I think it is well recognized that the panel we have in 
front of us represents those who are on the frontlines of the 
effort to protect our energy infrastructure from cyber threats.
    Thank you all for being here. I look forward to your 
testimony and comments.
    I will now turn to my Ranking Member, Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Well, thank you, Madam Chairman, and Happy 
Valentine's Day to you and everybody else out there, men and 
women, mostly the women.
    The Chairman. Men too.
    Senator Manchin. True, it is mostly women.
    [Laughter.]
    A tidbit I read this morning, it was really interesting and 
fitting for today about how we got the name of Saint 
Valentine's Day, or Valentine's Day.
    Saint Valentine, in the second century of the Roman Empire, 
basically, the Roman Emperor, Roman rulers, forbade their 
soldiers from getting married. They thought they were better 
fighters if they did not marry. Saint Valentine, basically, was 
performing marriages because he was a devout Christian, and he 
would say after he would perform the marriage, Happy Valentine. 
And so, it came from Saint Valentine. That is how we got 
Valentine's Day. It was very interesting to hear that, and I 
thought I would share that with you. I don't know if it is 
factual or not, but it sounds good.
    [Laughter.]
    Chairman Murkowski, I want to thank you for convening the 
Committee today to talk about cybersecurity efforts in the 
energy industry. This hearing is particularly timely because 
just a few weeks ago, our Director of National Intelligence, 
Dan Coats, publicly warned of two potential energy 
cybersecurity attack scenarios: a Russian cyberattack that 
could disrupt an electrical network for a few hours and a 
Chinese cyberattack that could disrupt a natural gas pipeline 
for weeks. These threats are not just theoretical.
    We know that in 2015 and 2016, Ukraine suffered two 
devastating power outages as a result of cyberattacks. And 
according to the New York Times, a petrochemical plant in Saudi 
Arabia was hit with an even more serious type of cyberattack in 
2017. That attack was not designed to shut down the plant, like 
the Ukraine power outages. It was meant to ``sabotage the 
firm's operations and trigger an explosion.'' In other words, 
the attack could have taken human lives, but luckily it did 
not.
    I cannot overstate how serious this threat is, and I am 
pleased that Secretary Perry has given this the attention it 
deserves by elevating cybersecurity to an office of its own, 
the Office of Cybersecurity, Energy Security, and Emergency 
Response, or CESER, for short.
    On a personal note, I am also pleased that the first 
Assistant Secretary to run this office is Karen Evans, who has 
not one but two degrees from WVU, a very smart lady.
    I am also especially pleased to have Major Keber of the 
West Virginia National Guard here to share the great work the 
Guard has done for West Virginia in the cybersecurity space.
    My current position as the Ranking Member of the Senate 
Armed Services Subcommittee on Cybersecurity and my time 
serving on the Intelligence Committee further convinced me that 
we need to look at this as a national security priority.
    Energy cybersecurity is national security. Period. 
Absolutely. In fact, there are two items I raised in the Armed 
Services Committee in our first cybersecurity hearing that are 
equally relevant in the energy space.
    First, supply chain security has emerged as a significant 
focus in both spaces. We have to make sure the companies that 
build components for our grid are secure. We have to protect 
against vendors' remote access of the grid being exploited, and 
we have to make sure that attackers do not insert malware into 
a vendor software update.
    Second, our cyber workforce is in crisis. We simply do not 
have enough cyber workers to fill the positions. Forbes reports 
that by 2021, there will be as many as 3.5 million, I repeat, 
3.5 million unfilled positions. Yes, a big part of this is 
about getting training, but let's not put the cart before the 
horse. It is also about bringing these jobs to the areas that 
need them.
    I think that is where there is an opportunity here for 
states like West Virginia and Alaska to fill the gap. I know 
that Major Keber will speak to this a bit more, but the West 
Virginia National Guard is one of the few National Guard units 
with access to a decommissioned power plant for workforce 
training, and they are increasing their workforce development 
efforts.
    I look forward to hearing from our witnesses about how the 
nation can rise to this challenge while strengthening the 
economies of places like West Virginia and Alaska. I look 
forward to hearing from our witnesses about how the nation can 
rise to this challenge while strengthening the economies in 
places like Southern West Virginia and rural Alaska. And I 
think it will require collaboration between all entities, 
including those represented by our witnesses here today, to get 
where we need to go.
    My little State of West Virginia has been a leader on 
energy supply and reliability for this country. But unless 
cybersecurity challenges are addressed head on, it won't matter 
how much supply we have. We must do everything we can to 
protect and ensure the security of our infrastructure. As we 
kick off that conversation in this new Congress, I am glad to 
have this great panel here today to share their outlook for 
cybersecurity in the energy industry.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    We will now turn to our witnesses. I introduced everybody, 
so we will just go ahead and proceed.
    We will begin with you, Chairman Chatterjee. We would ask 
that you all try to keep your comments to about five minutes. 
Your full statements will be incorporated as part of the 
record. Again, we appreciate the level of expertise that you 
bring to this very, very important discussion.
    Chairman Chatterjee.

  STATEMENT OF HON. NEIL CHATTERJEE, CHAIRMAN, FEDERAL ENERGY 
                     REGULATORY COMMISSION

    Mr. Chatterjee. Chair Murkowski, Ranking Member Manchin, 
and Members of the Committee, thank you for inviting me to 
appear before you today to discuss the cybersecurity in the 
energy sector. I appreciate the Committee's attention to this 
crucial subject and the role that the Federal Energy Regulatory 
Commission plays in securing our nation's critical 
infrastructure.
    I'd like to take this opportunity to highlight three major 
issues for the Committee. First, the evolution of mandatory 
reliability standards; second, the voluntary partnerships FERC 
has established with industry and other agencies; and third, 
the interdependency of the electric and natural gas systems.
    Turning first to the topic of Mandatory Reliability 
Standards. As part of the Energy Policy Act of 2005, Congress 
gave the Commission the authority to approve and enforce 
mandatory reliability standards for the nation's bulk power 
system, including for cybersecurity.
    As I'm sure Jim Robb will discuss in greater detail, EPACT 
'05 established a joint responsibility between the Commission 
and NERC as the designated electric reliability organization 
for developing and enforcing the reliability standards. Because 
of the unique relationship between our organizations, 
maintaining an open and collaborative relationship between NERC 
and the Commission has been a top priority during my tenure. 
I'd like to thank Jim and the rest of the team at NERC for 
their dedicated efforts, and I look forward to continuing our 
important work together.
    NERC's standards for cybersecurity, known as the Critical 
Infrastructure Protection, or CIP, standards became mandatory 
and enforceable in 2009. Since 2009, the CIP standards have 
matured considerably and now form an effective framework for 
protections against cyber threats. The evolution of these 
standards has reduced the need for constant revisions to 
address discreet issues and instead has allowed both FERC and 
NERC to focus on tackling emerging threats. In particular, I'd 
like to call the Committee's attention to two important actions 
that the Commission has recently taken on this front.
    First, at our Commission meeting last October, FERC 
approved reliability standards to address supply chain threats. 
By exploiting vulnerabilities in the electric utility supply 
chain, adversaries can seize on a variety of opportunities to 
compromise critical systems. While supply chain vulnerabilities 
are some of the most important to address, they're also some of 
the most difficult to mitigate. This is because today's 
utilities rely on a highly integrated, global supply chain to 
meet their business needs. Leveraging this modern network of 
vendors can provide utilities with significant benefits but it 
also presents difficulties in comprehensively identifying 
risks. While there is no silver bullet to mitigate supply chain 
risks, I believe this standard is a significant step in the 
right direction.
    Second, at our meeting last July, the Commission approved a 
final rule directing NERC to expand reporting requirements for 
critical systems. That rule directed NERC to develop a standard 
requiring registered entities to report both successful and 
attempted intrusions into critical systems to NERC's 
Electricity Information Sharing and Analysis Center, as well as 
to the Department of Homeland Security. This final rule 
represents another important step toward mitigating risks by 
enhancing the collection and distribution of information on 
rapidly evolving threats.
    While the NERC CIP standards form an important baseline, 
compliance alone is not enough to achieve cybersecurity 
excellence. That's why the Commission has adopted a two-prong 
approach to address threats to energy infrastructure, mandatory 
reliability standards overseen by our Office of Electric 
Reliability and voluntary initiatives overseen by our Office of 
Energy Infrastructure Security, also known as OEIS.
    OEIS engages with partners in industry, states, and other 
federal agencies to develop and promote best practices for 
critical infrastructure security. These initiatives include, 
among other things, voluntary architecture assessments, 
classified briefings for state and industry officials, and 
joint security programs with other government agencies in the 
private sector. Because the responsibility for securing 
critical infrastructure is shared across the public and private 
sector, I am a strong supporter of our efforts to continue 
strengthening these partnerships.
    As part of that objective, the Commission continues to work 
collaboratively in this area and will be hosting a joint 
technical conference on March 28th with the Department of 
Energy to discuss investments for cyber and physical security. 
The conference will explore current threats against energy 
infrastructure, best practices for mitigation, incentives for 
investing in physical and cybersecurity protections and cost 
recovery practices at both the state and federal level. And 
there's one final area where I believe continued partnership 
across industry and government will be essential. Because of 
our nation's growing use of natural gas for power generation, 
I'm increasingly concerned about the security of our natural 
gas pipeline system.
    Last year I joined my colleague, Commissioner Rich Glick, 
in an op-ed, detailing how a successful cyberattack on the 
system could have a significant impact on the electric grid. 
Given this vulnerability, Commissioner Glick and I expressed 
our view that more must be done to ensure robust oversight for 
natural gas pipeline cybersecurity. Since the publication of 
that op-ed, I've been pleased to hear from many members of the 
natural gas pipeline community who have expressed their 
appreciation for these concerns and a willingness to continue 
taking steps to improve their security posture. I also recently 
met with TSA Administrator David Pekoske and was impressed by 
his focus on this vital issue as well as his pledge to further 
improve TSA's oversight of pipeline security.
    While I think both industry and government have made 
significant strides, I believe more work still needs to be 
done. The Commission stands ready to assist in these efforts 
wherever we can.
    Now before I conclude my opening statement, I want to thank 
each of you, again, for your efforts in this space and your 
time to engage in this conversation today. These are complex 
issues and they won't be solved easily, but I appreciate the 
opportunity to come before you today, and look forward to 
continuing this essential dialogue.
    [The prepared statement of Mr. Chatterjee follows:]
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    The Chairman. Thank you, Chairman Chatterjee.
    Welcome, Assistant Secretary Evans.

 STATEMENT OF HON. KAREN S. EVANS, ASSISTANT SECRETARY, OFFICE 
OF CYBERSECURITY, ENERGY SECURITY, AND EMERGENCY RESPONSE, U.S. 
                      DEPARTMENT OF ENERGY

    Ms. Evans. Chairman Murkowski, Ranking Member Manchin and 
members of the Committee, thank you for the opportunity to 
discuss the continuing threats facing our national energy 
infrastructure. Focusing on cybersecurity, energy security and 
the resilience of the nation's energy systems is one of 
Secretary Perry's top priorities.
    By the Secretary proposing and Congress affirming the 
Office of Cybersecurity, Energy Security, and Emergency 
Response, also known as CESER, the Secretary clearly 
demonstrated his commitment to achieving the Administration's 
goal of energy security and, more broadly, national security.
    Our nation's energy infrastructure has become a primary 
target for hostile cyber actors, both state sponsored and non-
state sponsored. The frequency, scale and sophistication of 
cyber threats have increased. Our cyber incidences have the 
potential to disrupt energy services, damage highly specialized 
equipment and even threaten human health and safety.
    The Director of National Intelligence along with several 
heads of the Administration's Intelligence agencies recently 
stated in written testimony that China has the ability to 
launch cyberattacks that cause localized, temporary, disruptive 
effects on critical infrastructure such as the disruption of a 
natural gas pipelines for days to weeks. Russia also has 
similar abilities with the capability to disrupt an electrical 
distribution network for at least a few hours, similar to those 
demonstrated in the Ukraine in 2015 and 2016.
    The release of the President's National Cyber Strategy, 
also known as NCS, in September, reflects the Administration's 
commitment to protecting America from cyber threats. The 
Department of Energy plays an active role in supporting the 
security of our nation's critical energy infrastructure in 
implementing the NCS.
    As a result, energy cybersecurity and resilience has 
emerged as one of the nation's most important security 
challenges and fostering partnerships with public and private 
stakeholders is of the utmost importance for me, as the 
Assistant Secretary of CESER.
    CESER and its predecessor organization have demonstrated 
the emergency response function through multiple weather 
events, including hurricanes, by activating our emergency 
response organization. In 2018, CESER responded to over a wide 
range of incidences, including six hurricanes, three wildfires, 
two typhoons, a cyclone, an earthquake and a volcano eruption. 
Recently we worked closely with the federal industry and state 
partners to monitor the impact to the energy sector in the 
January 2019 Arctic Blast that affected central and eastern 
portions of the nation.
    However, today I would like to focus my testimony primarily 
on the cybersecurity function of the office and how CESER will 
meet the priorities of the Administration and work in 
conjunction with our federal agencies, state, local, tribal, 
territorial governments, industry and our national lab 
partners. The Secretary has conveyed that he has no higher 
priority than to support the security of our nation's critical 
energy infrastructure.
    CESER has the Department's lead to secure our nation's 
energy infrastructure against all hazards, reduce risks of and 
impacts from cyber events and disruptive events and assist with 
restoration activities. The office enhances the Department's 
ability to dedicate and focus attention on DOE sector-specific 
agency responsibilities and will provide greater visibility, 
accountability and flexibility to better protect our nation's 
energy infrastructure and support asset owners as well as the 
overall critical infrastructure response framework, as overseen 
by DHS.
    Establishing CESER is the result of the Administration's 
commitment to and prioritization of energy security and 
national security. Our long-term approach strengthens our 
national security and positively impacts our economy. As CESER 
moves forward, we are taking the first steps in 
transformational change to achieve the Secretary's priority of 
emergency preparedness and rapid, coordinated response to 
disruptions in the energy sector.
    I appreciate the opportunity to appear before this 
Committee to discuss cybersecurity in the energy sector and I 
applaud your leadership. I look forward to working with you and 
your respective staffs to continue to address cyber and 
physical security challenges.
    [The prepared statement of Ms. Evans follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Assistant Secretary.
    Major Keber, welcome to the Committee.

 STATEMENT OF MAJOR WILLIAM J. KEBER, EXECUTIVE OFFICER, WEST 
 VIRGINIA NATIONAL GUARD'S CRITICAL INFRASTRUCTURE PROTECTION 
                           BATTALION

    Major Keber. Good morning, Chairman Murkowski, Ranking 
Member Manchin, and members of the Committee. Thank you for the 
invitation and opportunity to participate in today's hearing on 
the Status and Outlook for Cybersecurity Efforts in the Energy 
Industry.
    My name is Major William Keber. I'm the Executive Officer 
for the West Virginia National Guard's Critical Infrastructure 
Protection Battalion, currently serving in a Title 32 status. 
Our organization is a distinctive one that conducts assessments 
and training to improve the security and operation of our 
nation's critical infrastructure.
    Since 2005, we have conducted infrastructure protection 
assessments and training events for the Department of Energy, 
Department of Transportation, Defense Industrial Base, the 
Department of Homeland Security and the Department of Defense. 
To date, our teams have conducted over 3,500 assessments and 
2,600 training events, educating over 59,000 individuals. We 
have conducted assessments in support of national events such 
as the State of the Union, Republican and Democratic National 
Conventions, the National and World Scout Jamborees and the 
Superbowl.
    The West Virginia National Guard CIP Battalion has a 
diversified portfolio that currently supports DHS, Department 
of the Army and the United States Coast Guard. We support DHS' 
cybersecurity infrastructure security agency with training, 
assessment support and infrastructure image captures. We 
support the U.S. Coast Guard by conducting their port security 
and resiliency assessments and the Department of Army by 
conducting mission assurance assessments and training.
    The CIP Battalion has always assessed networks and 
communication architectures against cybersecurity concepts and 
principles but never had the authorities to conduct deep 
analysis on the network. Assessment teams were relegated to 
questioning site representatives through interviews and 
annotating their physical observations. Recent Congressional 
legislation has opened the doors to evaluate cybersecurity and 
thereby allowing us to expand our capabilities and 
methodologies.
    The West Virginia National Guard has developed a 
relationship with the cybersecurity branch at NASA's 
Independent Verification and Validation Office. Members of this 
team have years of experience conducting blue and red team 
cyber assessments against some of our nation's most complex 
technical architectures. The collaborative sharing of best 
practices has significantly enhanced our organization's 
assessment teams.
    We are currently working in conjunction with a 
cybersecurity community of interest that includes Army cyber, 
NASA, Idaho National Labs, the National Security Agency, the 
Threat Systems Management Office, the Navy and the U.S. Army 
Corps of Engineers to formalize our approach and bring together 
the best practices from each of these organizations.
    We are working to develop a comprehensive approach and 
methodology for our cyber assessments. We will cover key cyber 
infrastructure areas such as the perimeter, networks and points 
applications, control systems and especially the policies and 
procedures to govern them. We plan to conduct network 
architecture reviews, traffic analysis, policy and procedure 
document review, access control evaluation and wireless 
vulnerability assessments.
    Most importantly, we are striving to replicate these 
systems in a lab environment to research potential 
vulnerabilities, determine possible attack vectors, test 
resiliency, identify systemic concerns and evaluate impacts in 
a safe manner. We will document our findings and incorporate 
risk mitigation recommendations into the Army's preexisting 
remediation processes.
    The West Virginia National Guard and the regular Army have 
contributed to enhancing workforce development by sending team 
members to specialized training. The West Virginia National 
Guard has organized cybersecurity training in partnership with 
the University of Charleston.
    Additionally, we have utilized our access to a 
decommissioned power plant in West Virginia. We utilize this 
facility to give trainees the opportunities to see firsthand 
the vast systems involved with industrial systems and power 
generation.
    Our Army partners have organized training at Idaho National 
Labs, SANS and other Army training opportunities. The CIP 
Battalion team's citizen soldiers have unique professional 
experiences providing distinct benefits. We have engineers, 
master electricians and network administrators that have 
decades of industrial experience. They can serve on an active 
status with us or in traditional reserve status, later 
returning to industry providing valuable skills and knowledge.
    To summarize, the West Virginia National Guard CIP 
Battalion is uniquely positioned to provide the Department of 
Defense and other related sectors insight and assistance 
pertaining to infrastructure protection and cybersecurity. We 
will continue to move forward with our efforts to expand our 
cybersecurity activities and help more organizations secure 
this great nation of ours.
    Thank you again for this opportunity to discuss our efforts 
to enhance cybersecurity within the West Virginia National 
Guard at today's hearing.
    [The prepared statement of Major Keber follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you, Major.
    Welcome, Mr. Robb.

   STATEMENT OF JAMES B. ROBB, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, NORTH AMERICAN ELECTRIC RELIABILITY CORPORATION

    Mr. Robb. Good morning, Chairman Murkowski, Ranking Member 
Manchin and members of the Committee. This is my first 
appearance before the Committee as NERC's CEO, and I appreciate 
the invitation very much to discuss the status and outlook for 
cybersecurity in the electricity sector.
    As you pointed out in your opening comments, Chairman, 
electricity supports every aspect of our way of life and well-
being. While to date there's been no successful cyberattack 
that's resulted in any loss of load in the United States, the 
threats are very real and the potential consequences severe.
    While all sectors of the economy are increasingly targets 
for data theft, ransomware and other criminal activity, the 
electricity sector, in particular, has taken the cyber threat 
very seriously and has put in place a robust system to provide 
protection for critical infrastructure. We find that boards and 
executive leadership provide very strong support and focus and 
set cybersecurity as a top priority for their organizations.
    In recent years we've seen an increase in the 
sophistication and frequency of cyber threats. The major 
threats include phishing, malware, physical attacks and theft. 
Spear phishing, in particular, with credential harvesting 
objectives is one of the most common attacks because it's 
proven to be so effective and relatively easy to execute.
    Nation states and terrorist groups are persistent threats, 
a reminder that security requires constant vigilance.
    NERC and our work employs a three-pronged approach to 
support the security of the bulk power system. Our approach 
includes mandatory and enforceable standards, as Chairman 
Chatterjee mentioned earlier, information sharing and 
partnerships. Together they form a solid foundation of best 
practices and strategies necessary to effectively confront this 
ever-evolving threat.
    NERC's mandatory critical infrastructure protection 
standards provide a common foundation for security. Our 
standards are developed using subject matter expertise from 
industry through a FERC-approved process and then reviewed and 
approved by NERC's independent board of trustees and then by 
the FERC.
    The CIP standards require companies to establish plans, 
protocols and controls that protect their critical systems 
against cyberattack, ensure the personnel are adequately 
trained on cyber hygiene, timely report security incidents to 
us and then be able to recover from events.
    Electricity is the only critical infrastructure with 
mandatory cyber standards. Compliance with those standards is 
routinely audited and non-compliances are subject to financial 
penalty.
    However, while critical to the security equation, standards 
alone are clearly insufficient. The emerging dynamic nature of 
malicious cyber threats requires constant situational 
awareness, real-time communications that are effective and 
prompt emergency response capabilities. That's where 
information sharing comes in. NERC's Electricity Information 
Sharing and Analysis Center, or the E-ISAC, provides these 
services and supports industry cyber defense. Operated by NERC, 
but working in collaboration with DOE and the Electricity 
Subsector Coordinating Council, the E-ISAC is the central hub 
for the sharing of security information within the electricity 
sector. The E-ISAC communicates with over 1,000 electric 
industry organizations via a secure portal with critical 
security information that is provided both by industry and 
government. We conduct periodic webinars and critical broadcast 
calls to rapidly communicate key insights and threats to 
industry.
    For the most serious of threats, NERC alerts are used to 
provide concise, actionable security information and mitigation 
strategies to industry. NERC alerts are divided into three 
levels and can require companies to positively affirm back to 
us that they have successfully mitigated the threat. Since 
2009, we've issued 46 security-related alerts, 41 of those were 
cyber-related.
    Partnerships, however, form the third plank for security 
and the preeminent partnership in the electricity sector is 
something we call the CRISP Program, the Cyber Risk Information 
Sharing Program. Conceived by the DOE and managed by the E-
ISAC, CRISP uses innovative technology developed by the 
Department of Energy and the national laboratory system to 
monitor cyber activity on company systems.
    CRISP companies currently cover approximately 75 percent of 
the meters in the United States and we are working to further 
expand that program. Indicators and threat actor information 
captured by CRISP is then shared to the entire E-ISAC 
membership base. So it's shared beyond the direct participants 
in CRISP so that everyone can benefit from those insights.
    Another key partnership is NERC's GridEx exercise. GridEx 
is the largest geographically distributed security exercise for 
the electricity sector. It's conducted every other year and 
simulates a widespread, coordinated physical and cyberattack 
designed to overwhelm even the most prepared of organizations. 
In 2017, 6,500 individuals and 450 organizations participated 
in GridEx IV, and we'll be launching GridEx V this November on 
November 13th and 14th.
    Looking ahead, however, there are many challenges for us to 
address and those include strengthening cross sector 
partnerships to facilitate better information sharing and 
coordination between critical infrastructure segments, 
developing more advanced and nimble tools to stay ahead of 
adversaries, securing electronic devices that are connected 
behind the meter, expanding the declassification and 
dissemination of critical information and developing a strong 
cyber-aware and cyber-capable workforce.
    Thank you again for the opportunity to discuss NERC's 
responsibilities for cybersecurity, and I look forward to 
questions.
    [The prepared statement of Mr. Robb follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    The Chairman. Thank you, Mr. Robb.
    Mr. Whitehead, welcome.

 STATEMENT OF DAVID EDWARD WHITEHEAD, CHIEF OPERATING OFFICER, 
           SCHWEITZER ENGINEERING LABORATORIES, INC.

    Mr. Whitehead. Chair Murkowski, Ranking Member Manchin, and 
members of the Committee, thank you for the opportunity to 
share the views of Schweitzer Engineering Laboratories on the 
important topic of securing our critical infrastructure from 
cyber threats.
    SEL is an employee-owned U.S. manufacturer and provider of 
products, systems and services for the protection, monitoring, 
control, automation and metering of utility and industrial 
electric power systems worldwide. Our mission is to make 
electric power safer, more reliable and more economical. We are 
headquartered in Pullman, Washington, and employ 3,700 folks in 
the United States with a total of 5,200 employees worldwide.
    As highlighted by today's hearing, cybersecurity is a 
critical component for the secure and reliable operation of 
electric power systems. For 35 years, SEL has emphasized the 
importance of security in the products and solutions we create.
    Whether it's regulatory compliance, securing power system 
assets or protecting operational network technologies, SEL 
offers security-focused solutions to help utilities protect 
electric networks and help vital industries protect their 
assets.
    Today, I'd like to highlight three topics that I believe 
are critical to the cybersecurity challenges we face in the 
energy industry and our nation. First, I will review what we 
see as an essential role of government, ``teaching the 
threat''; second, I will discuss the difficult task of 
balancing regulation and innovation; and third, I will provide 
a few examples of how industry is actively addressing 
cybersecurity threats.
    My point one, teaching the threat. We read in the news 
weekly, sometimes daily, about advanced, persistent threats 
from nation-states. Clearly, our adversaries are becoming more 
sophisticated in the way they target our critical 
infrastructure. We are constantly having to evolve our thinking 
and innovate against these threats.
    At SEL and other like-minded companies, we have some of the 
best engineers in the world doing just that. What we do not 
have is the access to the vast and sophisticated intelligence 
and information gathering that exists in our country. The U.S. 
Government has the capability to identify, classify and 
communicate these threats. At SEL, we take cybersecurity 
threats very seriously, and we act immediately when we receive 
information.
    Building out a more robust system of communication where 
government agencies move quickly and efficiently to share 
important information, to teach us about the potential or 
actual threats, will not only make our systems or will make our 
systems more secure.
    Point two, balancing regulation and innovation. SEL is a 
company built on the foundation of innovation. At the entrance 
of our research and development building in Pullman, 
Washington, these words are boldly displayed, ``The best way to 
predict the future is to invent it.''
    Innovation and regulation do not have to be at odds with 
each other. Regulations, however, are often implemented as a 
reaction to an undesired event. As soon as a regulation is 
enacted to address a specific issue or event, bad actors are 
already looking for other avenues of exploitation.
    Regulations have the capacity to limit how an institution 
may go about solving a problem. And further, regulations will 
never be able to anticipate new or innovative solutions. There 
are clear and obvious needs for standards and regulations and 
we are always ready to work together to create solutions, but 
we would encourage or we should be encouraged to work together 
in finding ways to continue fostering critical innovation that 
outpaces our adversaries. We cannot allow bad actors, who are 
unconstrained by regulations, to outpace us.
    And point three, industry is actively addressing 
cybersecurity threats. There is so much cutting-edge work being 
done in our industry to keep ahead of cyber threats. During the 
past 35 years since the development of our first product, SEL 
has continued to advance cybersecurity solutions. As systems 
become more integrated, we have moved from a, or we moved to a, 
security-in-depth approach, building layers of security so that 
systems are not dependent on one security feature, but instead 
consist of many layers. And solutions range from simple to very 
sophisticated.
    I remind folks never to connect critical infrastructure to 
the internet and to audit this which is certainly a very simple 
solution and then there's new technologies evolving like 
Software-Defined Networking which I'm convinced is the solution 
for engineered and cyber-secured industrial networks which is 
certainly a more sophisticated and technically advanced 
solution.
    The Federal Government is not the only entity paying 
attention to cybersecurity, industry is addressing 
cybersecurity too. Last week, I had the opportunity to attend 
DistribuTECH, a very large, electric power industry conference 
in New Orleans. It was exciting to see cutting-edge cyber 
solutions being offered by both new startups and well-
established suppliers. There are many brilliant minds working 
diligently to solve cybersecurity challenges.
    As new threats emerge, and they will, industry and 
government must work together and learn from each other to 
effectively secure our critical infrastructure. And I know we 
can.
    Thank you for the opportunity to testify, and I look 
forward to the questions you may have.
    [The prepared statement of Mr. Whitehead follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    The Chairman. Thank you, Mr. Whitehead.
    I think your comments really sum it up neatly. 
Specifically, how do we stay ahead of the bad actors? To use 
your words, the best way to predict the future is to invent it, 
but that requires us to be nimble and flexible, to be quick. 
You mentioned that it would be helpful if government agencies 
moved more quickly to share information.
    One of the things that we are not really adept at here in 
the Federal Government is moving quickly and sharing things 
readily. It speaks to the reality of this problem that we are 
reckoning with, not just here in the Energy Committee but 
across all of these Committees, whether you are on SASC or you 
are on Commerce or Homeland, this is impacting all of us.
    You have suggested, Mr. Whitehead, that some regulations 
can inhibit the process of invention. We would like to think 
that some regulation can actually help incentivize more 
investment, which I hope is the purpose of the joint conference 
that FERC and DOE are going to be hosting, called Security 
Investments for Energy Infrastructure.
    So, just a quick conversation this morning with you, Mr. 
Chairman, Assistant Secretary, and Mr. Whitehead. Exactly what 
options are out there to help facilitate this ability, this 
innovation, so that we have the investment that will line up 
behind it because you cannot have one without the other.
    Do you want to start off, Mr. Chairman?
    Mr. Chatterjee. Thank you for the question, Chair 
Murkowski.
    As I mentioned in my opening remarks, the Commission takes 
a two-pronged approach to address much of what you and Mr. 
Whitehead just laid out.
    We have mandatory reliability standards overseen by our 
Office of Electric Reliability but I firmly believe that those 
standards are the floor, not the ceiling. And that is why the 
second prong of our approach through our Office of Energy 
Infrastructure Security on focusing on voluntary best 
practices. Coordinating with other agencies is so critical to 
keep up with these, with the required information sharing that 
is necessary and these fast-evolving threats that we're dealing 
with.
    The Chairman. Do you think we share information quickly 
enough and adequately enough?
    Mr. Chatterjee. I think the efforts that Secretary Perry 
and Deputy Secretary Brouillette have led through the Electric 
Sector Coordinating Council have been effective. We've got the 
appropriate agencies and industry and stakeholders at the 
table, but we need to be smarter and better. We can always be 
better.
    I'm looking forward to the joint technical conference to 
make sure that as we look at cyber and physical protections 
that we have the right incentives policy in place. And that's 
really an important role that FERC can play in ensuring that 
those incentives to take on those risks are there so that we 
attract the right kind of investment focused on these physical 
and cyber threats.
    The Chairman. I appreciate that.
    Under Secretary?
    Ms. Evans. So I'd like to approach it a couple different 
ways based on what we've talked about today.
    The CESER office is actually looking at this challenge in 
concurrent paths, not sequential paths. There are specific 
things that we have to be able to do in order to respond and 
understand what's going on, and I think a lot of that deals 
with the information sharing.
    It's clear with what Chairman Chatterjee has said and the 
leadership and the partnership that we have with the E-ISAC and 
our electricity subsector coordinating council as well as the 
oil and natural gas coordinating council. So a lot of that 
information is being shared.
    A specific example I would like to share is that this 
Administration and we have been very forward leaning with 
attribution and then doing a full, multi-pronged approach with 
indictments as well as sanctions and then putting context 
around the information as to what is the threat and then how do 
you manage that. And then we share it out through the E-ISACs.
    But the other thing that we most recently have done on 
February the 6th, the Department has sent out a notice of 
intent, and you're going to hear me reference this a lot, which 
is the ``Clean Energy Manufacturing Innovation Institute: 
Cybersecurity in Energy Efficient Manufacturing'' because to 
me, that is how we get to the innovative leap ahead types of 
things.
    Everything that everyone has talked about, about building 
it into software, being able to manage ahead, taking care of 
innovation, that is the vision of what this manufacturing 
institute will do. And looking at a lot of the things that we 
have learned as an industry across the board and building it in 
so that we can take advantage of the technology.
    The Chairman. Thank you.
    Mr. Whitehead, is this going to help?
    Mr. Whitehead. What I think the biggest help we see right 
now is having forums this like where I had the opportunity to 
meet with Mr. Robb this morning for lunch and the information 
sharing that is set up right now with members and government is 
really the asset owner, so the Baltimore Gas and Electrics, the 
PEPCOs and so on and so forth.
    Where I think, for my request, is we're off one derivative 
though because I'm the manufacturer of these devices that are 
getting installed by the asset owners. And so, if there is a 
cyber threat or one of these activities going on, I think we're 
the most skilled in ascertaining what is the impact of a 
particular cyber threat because we're the ones writing the 
code, developing the hardware. So getting us looped in as 
quickly as possible if there's an attack out there and setting 
up mechanisms so it's, we refer to it as a JITE type of 
information exchange, I think it would really move us forward 
in terms of being able to secure our critical infrastructure.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman. I thank all of 
you for your appearance today.
    Many in this room, myself included, spent time at 
substations and know how physically vulnerable they used to be. 
In April 2013, attackers with rifles shot 17 transformers at a 
Metcalf, California substation. Before the attackers opened 
fire on the transformers, fiber optic lines running nearby were 
cut.
    Since then, NERC has proposed standards requiring 
transmission owners to address physical security risk and 
vulnerabilities that could impact the reliable operation of the 
grid.
    Mr. Robb and Chairman Chatterjee, I want to ask quickly, 
how has the physical security of the grid, specifically at 
substations, improved since those attacks? Very quickly, if you 
will.
    Mr. Robb. Now that the physical security standard you 
referenced has been put in place, all of the utilities in the 
country have had to identify critical assets within their 
jurisdiction and when we have to verify that they did the 
assessment of what's critical correctly and then they have to 
have a credible hardening plan against them. So not every 
substation in the country is subject to that protection 
standard, but the critical ones are and those actions have been 
put in place.
    Mr. Chatterjee. I agree with what Mr. Robb has said. You 
know, the important part is identifying, you know, where those 
critical substations are and where those key interconnections 
are and we have to remain, you know, vigilant on this.
    Senator Manchin. Let me go into this then.
    Just a week and a half ago, NERC issued the largest ever 
fine for 127 violations of physical and cybersecurity 
standards. As a general matter, many in the electrical sector 
have viewed the NERC standards as effective at establishing a 
baseline for cybersecurity.
    It is also my understanding large utilities often have more 
resources available to them than the smaller utilities to make 
the necessary security investments.
    So, again, my question would be as the entity responsible, 
Mr. Robb, for enforcement and imposing fines, what is your view 
of the current state of compliance across the country?
    Mr. Robb. So, in general, the industry has taken security 
very, very seriously and I think one of the important things to 
note about the CIP standards is one, they're relatively new to 
the industry. And most all of the violations that we process, 
including many in the enforcement action you referenced, 
Senator, are voluntarily reported, detected through detective 
controls within the entities. And I think that, in and of 
itself, shows the level of diligence and seriousness with which 
industry approaches this.
    I think your question about the resources of large versus 
small entities is a very insightful question. One of the things 
that we have done with our substandards is try to take a very 
thoughtful, risk-based approach to make sure that those 
entities, those assets, those functions, if you will, elements 
that propose the highest risk to reliability are more 
thoroughly protected and for lower risk entities and so forth, 
that they are, they have a baseline----
    Senator Manchin. Are there resources available to the 
smaller utilities so that they can maintain the security they 
need?
    Mr. Robb. I can't speak, obviously, for every utility in 
the country.
    One of the----
    Senator Manchin. No, I am saying do we have programs in 
place, government programs, because of the necessity of 
security, to make sure that smaller utilities are still meeting 
the highest security standards we have?
    Mr. Robb. The small utilities are required to be compliant 
for those functions that they are responsible for.
    One of the other initiatives that the industry has put in 
place though is something called Cyber Mutual Assistance.
    Senator Manchin. Okay.
    Mr. Robb. So that if an entity that is resource constrained 
suffers a cyber event or a physical event, that in the same way 
that the industry will muster resources to help in storm 
recovery and so forth, will also deploy resources to help in 
cyber recovery.
    Senator Manchin. Every two years, the North American 
Electric Reliability Corporation Grid Security Exercise, called 
GridEx, challenges utilities and state and local governments to 
respond to realistic cyber or physical security threat 
scenarios.
    Major Keber, from our little State of West Virginia, are 
you all participating? Do you participate in GridEx?
    Major Keber. Sir, to date, I have not personally, but yes, 
we do send other members that are working in our cybersecurity.
    Senator Manchin. Are all states represented? Do we know who 
is participating in GridEx so we can basically evaluate their 
proficiency?
    Mr. Robb. I can't affirm that every state does, but I'm 
pretty sure they all do.
    Senator Manchin. And?
    Major Keber. Yes, sir, I have heard that there is good 
representation from other states to include West Virginia's 
participation in the national GridEx exercise.
    Senator Manchin. Thank you, Madam Chairman.
    Thank you, all, I appreciate it.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    First of all, I want to welcome Mr. Whitehead here. We are 
honored to have a good chunk of Schweitzer Engineering 
Laboratories in Idaho. Mr. Whitehead, I think, was very modest 
in his description of what the company does. You indicate you 
have 5,200 employees around the world. How many countries do 
you operate in, Mr. Whitehead?
    Mr. Whitehead. We have product in about 146 different 
countries, so we certainly have a global presence.
    Senator Risch. Yes.
    Schweitzer Engineering was founded by a genius of a man, 
Edward Schweitzer, who is a former NSA employee, interestingly 
enough. And he is the driving force right now behind the 
establishment of an NSA museum here in Washington, DC.
    The products that they put out are legendary around the 
world, and we are glad to have you.
    You and I have talked a little bit about this but when I 
started about ten years ago on this, well, on this Committee 
and the Intelligence Committee, the cyber thing was becoming 
obviously a big issue. At that point the private industry was 
very, very reluctant to engage the United States Government in 
its activities and particularly to disclose to them what kinds 
of things they were doing, what they had, et cetera, et cetera.
    After a couple of few incidents the private sector and, by 
the way I understand where they were coming from on this, but 
after a couple of few incidents the private sector had a rude 
awakening and now that whole situation has changed 
dramatically.
    Do you agree with that assessment, that the private sector 
has realized that they are not big enough to individually take 
on this cyber threat?
    Mr. Whitehead. I think there's certainly a lot of talent 
within the private sector to go about solving problems. 
Certainly, the challenge we have in the private sector is 
knowing all of the threats that may be coming at our critical 
infrastructure.
    And I think, again, that's where the government plays a 
great role. They have a lot of resources to understand, attack 
vectors and who may be the threat actors challenging our 
systems. So the ability to work with the government to quickly 
exchange information, tell us what's going on, by us being the 
individual manufacturers or the asset owners, being able to 
tell us what the threat is or teach us what the threat is. We 
have a lot of brilliant minds that then can figure out how to 
mitigate those threats and come up with new solutions to 
protect our critical infrastructure.
    Senator Risch. It has become a much more robust partnership 
then, would you agree with that, between the private sector----
    Mr. Whitehead. Yeah, I think, yeah. After the last ten 
years or so we're getting, you know, great relationships with 
NERC and other regulating bodies.
    I feel that the pace with which information gets 
disseminated could--it would help us all if it was sped up.
    Senator Risch. As I listen to the threats through the 
Intelligence Committee, I am always amazed that we do not have 
more trouble than we do with the number of people that are 
levying a tax against us, the number of attacks that they are 
levying against us and the sophistication with which they are 
operating.
    It is things that you make at your company that stop that 
and, for that, I think everyone should be grateful, although 
most people have no idea what, that those devices are out there 
between them and between the device they are holding and where 
they are communicating with.
    Mr. Whitehead. Thank you.
    And it's not like, well certainly from SEL's perspective 
which we woke up say, five years ago, and thought cybersecurity 
would be a challenge. And as you pointed out, Ed, Dr. 
Schweitzer, had a career at DoD and took cybersecurity very 
seriously. So even back in 1984 when he created the first 
product, there were two levels of passwords and other means for 
signaling control systems, that there was, you know, at least 
an attempted access to one of our devices.
    So, this is, we've always, I think, taken cybersecurity 
very, very seriously from day one, certainly at SEL, and I 
think our industry also appreciates the need for cybersecurity.
    Senator Risch. Well, we appreciate that.
    Major Keber, very briefly.
    I understand that you recently had some training at the 
Idaho National Laboratory (INL) on cybersecurity. Is that 
correct?
    Major Keber. Yes, sir, that is.
    Senator Risch. Realizing you cannot tell us everything 
about it, for those of you who do not know, the Idaho National 
Laboratory has been the flagship nuclear energy laboratory in 
America and is quickly becoming the cybersecurity flagship 
laboratory in America which we are glad to have. It has some 
unique things going on there, some unique assets, that they 
have that make it such.
    Could you tell us a little bit, briefly, about your 
training there and what you can tell us about it?
    Major Keber. Yes, sir.
    It was, the training was a very good, comprehensive look at 
industrial control system cybersecurity. We looked at 
specialized, sort of, devices that are unique to industrial 
control system and kind of looked at the holistic approach of 
how to access those particular networks and infrastructures 
developed.
    They did take us, we did take a look at the tour of the lab 
that they have there. It was a very interesting and unique, one 
of a kind, site to see.
    Senator Risch. Did you meet with any of the strike teams 
that they have there that are ready to deploy?
    Major Keber. Yes, sir.
    We met with some of their assessment teams. They came in 
and we had an engagement with them and it was very informative. 
We shared and cross-leveled best practices and took a lot from 
what they had to offer in a way of experiences and things that 
they're seeing out during their assessments.
    Senator Risch. Well, we are proud of the INL, and glad to 
hear that it worked well for you.
    So thank you very much. My time is up. Thank you very much, 
Madam Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Stabenow.
    Senator Stabenow. Thank you, Madam Chair.
    First to you and the Ranking Member, congratulations again 
on a very important lands bill being passed. I know it was an 
incredible amount of hard work for a long time. So 
congratulations.
    This is an incredibly important hearing. It touches every 
part of our economy, our way of life, and our national 
security. So thank you to all of you for being here.
    The last polar vortex a few weeks ago produced, as we know, 
freezing temperatures and snow and rain across the Midwest. We 
certainly felt that in Michigan. We had a gas compressor 
station in Southeastern Michigan that suffered an unexpected 
fire, and there were a lot of questions about how that happened 
and what was going on, as you know. It resulted in Michigan 
families being asked to lower their thermostats, and 
businesses, including our auto manufacturers, suspended 
operations.
    It was a real sobering reminder of the vulnerabilities, 
both because of climate change and what is happening around 
carbon pollution, and cyberattacks from foreign companies or 
others and the increasing interdependence of our critical 
infrastructure. And I know that is why we are having this 
discussion.
    I want to stress one area in transportation coming from 
Michigan, because we know that the new cybersecurity threats 
are emerging as transportation becomes more electrified and 
autonomous. This is another important piece because we know 
that by next year, 90 percent of new cars are projected to be 
connected to the internet and what comes with that. And we know 
that within 20 years, 55 percent of all new car sales are 
projected to be electric, in addition to other kinds of fuels.
    We currently have mandatory federal cybersecurity standards 
for bulk power in electric systems, but not for interstate 
natural gas pipelines and electric distribution that directly 
services homes, businesses and transportation.
    I know that Chairman Chatterjee, you mentioned that gas 
infrastructure, but to you and Mr. Robb, isn't it time we had 
mandatory cybersecurity standards for this critical electric 
and gas infrastructure?
    Mr. Chatterjee. Thank you, Senator Stabenow, for the 
question.
    And yes, the point you raise is spot on. The increased 
interdependence that we are seeing, particularly between gas 
and our electricity mix in our power system makes ensuring the 
security of that infrastructure so important and so 
significant. And it's something that I've been particularly 
concerned about.
    I partnered with my colleague on the Commission, Rich 
Glick, early on after we both joined the Commission, to 
highlight the fact that due to this increased interdependence 
focusing on the security of this infrastructure was essential. 
We raced and looked at the fact that while FERC was responsible 
for permitting the approval of the pipeline, the responsibility 
for securing the pipelines, you know, against physical and 
cyberattacks fell to the TSA. So, the agency which is 
responsible for 800 some odd million aviation passengers, the 
highways, our rail system, also responsible for this massive 
network of pipelines. We had concerns about the resources and 
the personnel and the expertise at TSA to do this as well as 
the fact that TSA relied upon voluntary standards.
    One thing that I will say is that in the past year since 
Commissioner Glick and I, sort of, elevated the profile of this 
discussion and folks like Senator Heinrich and others have 
introduced legislation on it, I have been impressed by the 
response I've seen from both industry and TSA. Industry has 
really moved forward to take ownership of this and take steps 
to demonstrate their seriousness and focus on investing in the 
security. And as I mentioned in my opening remarks, in meeting 
with the TSA Administrator, it was clear that they were putting 
a greater focus on this. That said, the recently published GAO 
report showed that there is still much, much more work to do.
    And so, while I'm pleased with the progress we've seen 
since we elevated the profile of this issue, I'm going to 
remain vigilant on it because there's a lot more that needs to 
be----
    Senator Stabenow. Well, we have been talking about this for 
a long time, frankly, and not moving as fast as the technology. 
Those that wish to use the technology to do us harm are moving. 
I did not hear yes or no on mandatory cybersecurity standards.
    Mr. Chatterjee. Again, I think it's an ongoing dialogue 
that we'll have to see.
    Senator Stabenow. Alright.
    Mr. Chatterjee. I've been encouraged by the voluntary, by 
the improvement in the voluntary steps that industry has taken 
and by the attention that TSA is putting to this. I want to 
continue to work toward that.
    Senator Stabenow. I understand. We need to be moving a lot 
faster.
    Mr. Robb, did you have thoughts on that?
    Mr. Robb. Well, I'll agree with the Chairman that the 
interdependency between natural gas and electric, the electric 
sector, has become fundamental now to the reliability of the 
system. Without fuel, power plants can't run.
    And while I can't comment authoritatively on the state of 
cybersecurity on the pipelines and the effectiveness of the 
voluntary standards that are in place there, I think it is 
incumbent upon the natural gas industry to be as secure as the 
industry that they are supporting.
    Senator Stabenow. Okay. We have a lot of work to do in all 
of this.
    My time is up, so I will not ask another question, but I am 
going to ask in writing about the vulnerabilities in our energy 
supply chain and whether our growing dependence on foreign made 
energy components presents a potential national security 
threat, as we are hearing from our own intelligence community 
when they say technology supply chain attacks are a key threat. 
I know in the auto industry they are deeply concerned about 
that.
    So thank you, Madam Chair.
    The Chairman. Yes, it is a good question.
    Senator Cassidy.
    Senator Cassidy. Mr. Whitehead, I think it was you who 
mentioned the necessity for increased information sharing 
between the Federal Government and folks such as you. I totally 
agree. Why is it not occurring?
    Mr. Whitehead. I think that's better left up to Mr. Robb or 
the Chairman.
    When we had to have conversations to make great 
conversations with them, I think that we're just at a point now 
where we've established between say, the government and the 
asset owners. I think that the next step in the evolution of 
how we share information that will certainly include the 
equipment suppliers to the asset owner.
    Senator Cassidy. So let me kick it over to you, Mr. 
Chatterjee, because if we have voluntary standards and as 
Senator Stabenow said, okay, it's very important, but 
everybody's testimony says it is dynamic. How can you 
voluntarily comply with a dynamic situation when you are not 
given the information about the dynamism? Does that make sense?
    Mr. Chatterjee. It makes complete sense.
    I think there are a number of elements to this. The topic 
of workforce has come up. You know, cybersecurity talent is 
hard to find.
    Senator Cassidy. Now, that seems separate though, if I may, 
because obviously you have somebody coding but you have 
somebody else saying, uh oh, we never thought of this one but 
they are coming at us this way. That is not workforce, that is 
information sharing.
    Mr. Chatterjee. Information sharing is a component of it as 
well. There's also issues, quite frankly, that are taking place 
with getting the sufficient clearances.
    FERC has been trying to do our part to do one day read ins 
so that our colleagues at the state level and industry have 
access to----
    Senator Cassidy. Now, we have heard testimony, not to 
interrupt, but I have limited time.
    Mr. Chatterjee. Yes, sir.
    Senator Cassidy. We have heard testimony, because I think 
Madam Chair has a fixation on this topic. So last time we had 
several hearings on this, and it was that the big energy 
producers have that clearance. There is someone there who has 
that clearance. But still I am hearing from Mr. Whitehead, who 
is being very diplomatic over there, that the information is 
not being shared. Now you sense my frustration.
    Mr. Chatterjee. Absolutely, sir.
    Senator Cassidy. So, digame, porque?
    [Laughter.]
    Why is that?
    Mr. Chatterjee. So again, there are challenges that occur 
in terms of sharing the information in a classified setting. We 
are doing everything we can to make sure that the information 
that we gather in a closed setting or an open setting is shared 
with industry partners----
    Senator Cassidy. What I am hearing from Mr. Whitehead--my 
eyes are not good enough, is it doctor or mister?--that is not 
the case. Ms. Evans, did you have some comment on that?
    Ms. Evans. Yes, sir, I appreciate the opportunity to 
discuss this with you.
    This is exactly why Secretary Perry established the CESER 
office is to address the frustration that you're experiencing 
right now and that you're expressing.
    So the activities in the programs in our office are to help 
bridge that gap with our partners because we're looking at it 
from a national security perspective. So the threats, the 
things that you're talking about, how do you declassify that 
and then how do you get it out to the asset owners as well as 
to the people that are delivering services and also software 
and manufacturers, those types of things?
    Senator Cassidy. So none of that is aspirational.
    Ms. Evans. Well, no, I was going to get into--we were doing 
things. We actually have----
    Senator Cassidy. Okay, because I have a minute and 40 
seconds left.
    Ms. Evans. Okay.
    So we have several programs underway and the most recent 
example under my tenure is the APT10 threat where we worked to 
declassify, with the intel community, declassified those 
indicators, then shared those out with the community through 
the E-ISACs and then continuously communicate that back out. We 
work with the national labs and it's----
    Senator Cassidy. Why would Mr. Whitehead say that there is 
still an issue here?
    Ms. Evans. Because the Administration and Secretary Perry 
and this office has been established for four months.
    Senator Cassidy. Got it.
    Ms. Evans. And so, I would give you, I would ask you to 
give me the opportunity to increase that because he does work 
with our research and development program and there are several 
programs that we are actually working in conjunction with him 
to improve that.
    Senator Cassidy. Got it.
    Now let me ask you one more thing. Everybody mentions this 
dynamic you don't want regulations but there was a malware 
incident with Entergy about a year ago and it was on the 
corporate side, not on the grid side. I think it is MISO--I 
never know if it is ``meeso'' or ``miso''--but the concern was 
that it might infect the transmission. It did not because it 
was in corporate.
    That just seems like a best practice that you would have a 
firewall between somebody opening an attachment from his son 
which turns out to be malware versus that which is sending 
electrons from Indiana to Louisiana.
    Knowing that we do not want to regulate this to death but 
are there best practices that are expected to be complied with 
because, for example, in a previous hearing we heard that in 
some situations they have an analog switch as a best practice 
because it doesn't allow the cyber to go all the way through 
because there's one little flip that a human being has to do 
that otherwise protects one side from the other. Are there best 
practices that we are, kind of, mandating?
    Ms. Evans. Well, we're not mandating best practices. What 
DOE does is share the information out with our respective 
partners that are represented here as well as into the 
community. So that specific incident that you are describing 
really says, okay, if you're going to gain efficiencies, don't 
connect your IT systems to your OT systems. Yes, that is a best 
practice that is stressed throughout the community that is 
talked about over and over again. I know that the E-ISACs have 
shared that information out in the community. But this is some 
of those things where you have to over communicate to make sure 
that best practices and the exercises--you know, we have done 
joint exercises with FERC. We do the exercises, we participate 
because exercises highlight what you think the best practices 
are, give you opportunities to really demonstrate those and 
then to continuously close the gap. So everybody has been 
talking about that, that is important.
    Senator Cassidy. I have a question for the record regarding 
compliance with those best practices because once you have 
everybody putting their electrons on the same grid, you want to 
make sure that they are not just thinking about it but they are 
actually doing it.
    Ms. Evans. Yes, sir.
    Senator Cassidy. So we would like to know about compliance.
    Madam Chair, thank you for indulging.
    The Chairman. Thank you.
    Senator King.
    Senator King. Thank you, Madam Chair.
    First, I would like to hopefully suggest that we can move 
quickly on S. 174, which is the bill of Senator Risch and me. 
Last year it was S. 79. It passed the Senate and came within a 
whisker of passing the House at the very end of the session. I 
hope we can. We have had a hearing. We have had a markup. I 
hope we can move that bill out because it addresses this 
question exactly.
    There is a weird calmness about this hearing.
    [Laughter.]
    This is not calm. The Russians are already in the grid, are 
they not, Mr. Robb?
    Mr. Robb [off mic]. I can't----
    Senator King. Well, there were news reports from a year ago 
of the Department of Homeland Security releasing screenshots of 
Russian hackers in the SCADA system. Is that not true?
    Mr. Robb. Again, I'm not in a position to talk----
    Senator King. Well, can you comment on the public story 
that was something released by the Department of Homeland 
Security?
    Mr. Robb. No.
    Senator King. Okay, let me ask another question.
    Do any of our utilities have Kaspersky, Huawei or ZTE 
equipment in their systems?
    Mr. Robb. We issued a NERC alert.
    Senator King. I did not ask you if you issued an alert. I 
am asking you, do any of our utilities have ZTE, Huawei or 
Kaspersky equipment or software in their systems?
    Mr. Robb. Not to my knowledge.
    Senator King. Not to your knowledge.
    Mr. Robb. Not to my knowledge.
    Senator King. Have you surveyed the utilities to determine 
that?
    Mr. Robb. I don't believe we have.
    Senator King. I think that would be a good idea, don't you?
    Mr. Robb. I'll take that on.
    Senator King. Thank you.
    Of course there should be mandatory standards for gas 
pipelines. They are part of the electric system. 60 percent of 
the energy of the electric industry supply in New England is 
natural gas, not to mention heating.
    It seems to me we have already passed this, an effective 
system for the electric utilities, and Mr. Chairman, I am with 
you 100 percent, but I just don't want you to hedge about it. I 
think you should come right out and say, we have to do this.
    Mr. Chatterjee. I think mandatory standards are one way to 
do this, but I just would caveat that they are not necessarily 
the only way and the only--the point that I was making was that 
I've been heartened by the significant support I've seen from 
industry since I raised the subject matter, and I want to 
continue that productive dialogue.
    Senator King. Do they support mandatory standards?
    Mr. Chatterjee. Right now, again----
    Senator King. Let me guess, they don't.
    Mr. Chatterjee. At this stage I have to commend them for 
the steps that they have taken since I raised this issue, and I 
want to give them the opportunity to work in good faith going 
forward.
    Senator King. Well, I appreciate working in good faith, but 
it seems to me we made a realization some years ago that 
mandatory standards made sense in the electric side. If the 
natural gas pipeline system is now essentially a part of the 
electric system, I see no reason why that should not be the 
case in that industry.
    Mr. Chatterjee. I think there's no question that Congress 
continuing to shine a light on this will help move forward on 
this issue.
    Senator King. Major, do we red team the utilities?
    Major Keber. Sir, not at this time, I do not. My teams do 
not red team utilities and private sector. We are focused on 
government-only entities.
    Senator King. Mr. Robb, does anybody red team the 
utilities?
    Mr. Robb. I'm not aware of, sir.
    Senator King. Don't you think that would be a good idea? 
You can't really tell if you are safe until somebody smart 
comes in and tries to attack you.
    Mr. Robb. I'll take that, sir.
    Senator King. Thank you.
    Again, I just think we are entirely too calm about this. 
This is not a threat. This is happening now. We are under 
attack.
    This is not something that may happen next year or two 
years from now, and I am not revealing anything classified in 
the sense of quoting news articles and presentations by the 
Department of Homeland Security.
    We are in a very dangerous place and I just think this has 
to be an emergency, an urgent situation and that's--I just, I 
hope I have conveyed that here this morning.
    Madam Chair, I really commend you and the Ranking Member 
for doing this hearing, because I do not think there are many 
more serious threats facing this country than this one.
    And I thank all of you. I don't mean to come off as 
negative. I love what you are doing at the Department of 
Energy. You have the office set up. It is the right structure.
    But I just think this has to be addressed with a real sense 
of crisis because I do not want to go home to Maine and say, 
well, we knew what was going on but you know, we had four 
committees here that had jurisdiction and we really could not 
quite get it done. We have got to get it done.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    I am reminded that when it comes to pipelines that, oddly, 
it is not our Committee's jurisdiction, it is the Commerce 
Committee. But you are right, cybersecurity is not limited to 
this Committee or to Commerce or to Homeland or to SASC, it is 
cross-jurisdictional. We need to address it as such.
    How we are able to do that and do that quickly gets back to 
the issue that it is not only agencies being nimble. It has to 
be amongst us and our committees and how we are talking with 
one another, because right now we all know that we have our own 
silos inherent within this. But you have good cause to be 
frustrated.
    Let's go to Senator McSally.
    Senator McSally. Thank you, Madam Chair.
    I want to pick up where my colleague left off, because I 
agree this is a very real threat and the threat is with us.
    I am thinking back if I close my eyes, I worked for Senator 
Kyl back in 1999 when I was a major in the Air Force as a 
Legislative Fellow. As he was the Chair of Technology Terrorism 
and Government Information Subcommittee on Judiciary, this is 
what we focused on. The majority of my portfolio was 
cybersecurity related to critical infrastructure and at that 
point the potential threat of state actors and non-state actors 
to hold us hostage and to take down grids and the potential 
attacks there. If I close my eyes this would sound like a 
hearing from 19 years ago in many ways.
    I do not want to take away from some of the things that 
have been done but what has changed in 19 years, more rapidly 
than us figuring out how to defend, protect, share information 
and do whatever it takes, is the threat is real and it is 
happening. And that includes China and Russia, Iran, other non-
state actors that have just taken leaps and bounds investing in 
looking at how they could go after us in asymmetrical 
capabilities, to go after us where we might be vulnerable.
    I appreciate you, Madam Chairman, for doing this hearing. I 
appreciate the discussion today.
    I am deeply concerned about the threat, the information 
sharing, the silos, both up here and out there.
    One is related to information sharing to rural communities. 
So, the CRISP program, Ms. Evans. I want to talk a little bit 
about some of the major utilities. A lot of them are involved 
in it and that is great, but in Arizona the vast majority of 
our communities are rural and so the smaller companies or the 
co-ops and others--how is that program going to be able to or 
how is more information sharing going to be able to get out to 
small utility companies so that they are equally informed and 
protected?
    Ms. Evans. So I appreciate the opportunity to answer that 
question, and I want to share although we are calm, I would say 
that the Administration shares your sense of urgency in 
addressing this issue because we know the threat is real and we 
know that we have to deal with the energy sector accordingly.
    And it is a multi-pronged approach to the question about is 
there red teaming that is happening in the utilities. DHS does 
have that capability and does offer it when it is asked for. It 
is a voluntary type of activity.
    As it relates specifically to the municipalities and co-
ops, we are embracing and taking that and leaping forward 
because CRISP is an evolution of several lessons learned that 
we have from the energy sector. And the one thing that I want 
to highlight is that trust relationship that is key to 
information sharing.
    If you have this long history, as you have said, then you 
know if there's no trust in the sector then the information 
isn't going to be shared. And so, CRISP and the E-ISAC and the 
leadership from the energy sector, across the board, both with 
pipelines as well as oil and natural gas and the electric 
sector have really built the trust. That's how we share the 
information. They have an oil and natural gas. We have the E-
ISAC. And also because of what happened with the FAST Act of 
2015, this Committee clearly established that DOE had to say 
what is the critical defense, critical infrastructure and what 
are the energy assets associated with that.
    When we did that, Assistant Secretary Walker has done that. 
We, as DOE, because of the critical nature paid to make sure 
that those municipalities that were identified in that could be 
part of the CRISP program as we continue to evolve how we're 
going to do information sharing in a dynamic bidirectional way.
    Senator McSally. Great, thanks.
    I do want to follow up also on the clearances issue. I was 
on the Homeland Security Committee in the House and this, for 
all sorts of threats that we are talking about, whether it is 
terrorist threats to, you know, massive sports gatherings or 
retail industry, the constant issue that came up is the lack of 
ability for individuals that are out there, day in and day out, 
that are having to deal with the threat, knowing what is going 
on.
    We have done a good job since 9/11 in general of breaking 
down barriers among federal agencies, but now this vertical 
information sharing amongst governments and with the private 
sector is just something that is lacking. So the clearance 
issues, the opportunity to do tear lines so that the 
information can be shared out there is really important. Where 
are we in breaking down some of those barriers? We have to 
protect, obviously, information, but there are ways to do this 
by reading in more people with clearances and using tear lines.
    Ms. Evans. Well, the clearance process, as you know, is an 
amorphous process that everyone participates in but I would say 
that the intelligence community is very forward leaning because 
the worldwide threat assessment document that was just released 
on January 29th really clearly outlines what the current state 
of affairs is. And that's an open-sourced document that 
everyone can read.
    Now what we have done from our perspective is those with 
clearances, we're giving them more specific information 
associated with that. But I don't know how much clearer you can 
be if you don't read that document about what the threats are, 
the sense of urgency, what our adversaries, our nation-states 
are capable of doing and what we need to do as a nation in 
order to be able to secure the energy infrastructure.
    Senator McSally. Great.
    I am out of time, but I think I am also talking about 
specific threats as they are arising. I realize we have to 
protect sources and methods but then getting that information 
out quickly.
    Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator McSally, I appreciate you raising the 
issue of security clearances because we have heard that time 
and time and time again. I understand that it is still an issue 
even though we addressed it through the FAST Act but we 
continue to have holdups through the FBI.
    Those who need it----
    Senator King. Madam Chair, last time we checked in the 
Intelligence Committee, there was a backlog of something like 
750,000 security clearances.
    The Chairman. Yes.
    Senator King. It is a huge problem.
    The Chairman. Yes.
    You say you are working to get the clearances, but you 
still have folks on hold. So you cannot get the information 
that you need to share because you do not have the clearances.
    Mr. Whitehead. Just a point of clarification, and I'm sure 
our company is not unique, but at SEL we have folks with 
clearances, including myself up to the TS/SCI level so we can 
sit in classified briefings and get to understand the details 
of what those threats might be.
    The Chairman. I should hear from our folks. You speak about 
the rural application and there is a need to know here.
    Senator Heinrich, you are probably going to carry on this 
conversation, so it is your turn.
    Senator Heinrich. I will do my best, and thank you for 
having this hearing.
    I continue to hear from utilities that it is a real 
challenge, the backlog, and that it is a huge bottleneck. In 
fact, we heard from a former member last year, if you remember, 
who used to be on the House Intelligence Committee, that he 
could not get his clearance. If he can't get his clearance, 
then who can?
    Let me switch gears here and, Mr. Robb, you mentioned spear 
phishing. I agree that is an incredibly important point of 
entry that we need to do a better job on, and it is a hard one 
because it is human-based.
    Secretary Evans mentioned separating IT systems and OT 
systems. When I think about this--and I grew up in a utility 
family, my dad was a lineman then he went on to manage both gas 
and electric distribution systems--there is a bias in utilities 
and it is, oftentimes, a very positive bias toward reliability. 
But sometimes that can manifest itself in ways that do not help 
us update systems.
    Specifically, I think about SCADA systems and I think about 
programmable logic controllers. I think about the openings 
there with regard to being able to control those systems using 
radio communication due to the fact that they are hard to air 
gap, especially the older ones. And I worry that we are not 
moving fast enough, especially in a world where it is often 
viewed that if it works, just leave it alone. Sometimes that 
causes utilities, or the person whose job it is to actually 
update the software or change out an outdated component, to not 
do that. And so, those challenges continue to exist well beyond 
their normal life span.
    Are we doing enough in terms of securing and updating those 
kinds of components across the entirety of the utility system, 
Mr. Robb?
    Mr. Robb. Yes, so a couple comments to your point directly.
    The CIP standards do require critical systems to be patched 
and to be kept at up to date with the latest releases.
    You're right that it is a challenge in many cases to 
reconfigure systems without studying all the derivative 
ramifications of those. It's a very complex machine but the 
standards do require ongoing patching and modernization.
    Senator Heinrich. Do we spot check or have any way to just 
make sure that it is actually happening?
    Mr. Robb. Subject to spot check and thorough audit.
    Senator Heinrich. Great.
    Mr. Robb. Routinely.
    One other point I wanted to make, if I could, just a 
second.
    Senator Heinrich. Sure.
    Mr. Robb. The Senator's question from Arizona because it's 
applicable here.
    The CRISP program insights are not confined to just the 
CRISP participants. When we work through the insights that come 
out of that program, although they originated from a handful of 
utilities, they're disseminated broadly across the----
    Senator Heinrich. So, rural electric co-ops, for example.
    Mr. Robb. So, the rural electric companies, the 
municipalities and so forth are the beneficiaries of that 
information.
    I am sorry.
    Senator Heinrich. No.
    Chairman Chatterjee, I wanted to ask you, is TSA the right 
place--and I appreciate that they are putting more focus on 
this and they seem to have a pretty big job at the airports, I 
have noticed--is it the right place for that to live?
    Mr. Chatterjee. When I recently raised this issue, that was 
the question that I asked. Is the entity responsible for 
aviation, for railroads, for highways, you know, also 
responsible for this, particularly when reports indicated that 
they had as few as, I think, four or six people responsible for 
overseeing this really critical task?
    I've been impressed with how they've responded to the call 
for action but the GAO report clearly showed that there was 
much more work to do and, I think, particularly stressed having 
the expertise and the resources in place. I think FERC is 
making a commitment through our Office of Energy Infrastructure 
Security to work with TSA to provide that expertise.
    Senator Heinrich. Sure.
    Mr. Chatterjee. My final point I want to make because it 
addressed a point Senator King was pressing me on as well, and 
I just wanted to be clear on this. The authority to impose 
mandatory standards does currently lie with TSA, and it would 
take Congress to make that change. I just want to be clear, I 
wasn't dodging the question but----
    Senator Heinrich. I think we should all be thinking about 
that question, where the right place is to do this and making 
sure it is adequately resourced.
    Before I let you go, Chairman, I want to get your update on 
FERC Order 841. What kind of a timeline are we looking at?
    Mr. Chatterjee. So we've heard from a number of 
stakeholders that they're waiting for our action on rehearing. 
We had a comment or a deadline for filings of December the 3rd. 
These are very, very complex issues. We understand that people 
want that clarity going forward. My colleagues and I are 
committed to doing it right and we understand the agita and the 
desire to get it done. Better to do it right than rushed, but 
we're working diligently.
    Senator Heinrich. I agree. We do need to get this right, 
but it is also a pretty urgent matter. It certainly opens up an 
enormous amount of economic activity and a resiliency that we 
need to be supportive of.
    I would just, once again, emphasize what an urgently 
important order that is.
    Mr. Chatterjee. Yes, sir.
    Senator Heinrich. Thank you, Chairman.
    The Chairman. Thank you, Senator Heinrich.
    Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Madam Chairman, and thank 
you so much to the panel and the experts that we have here that 
is so helpful to this Committee.
    I do have a question, Ms. Evans, kind of continuing on the 
conversation.
    We all understand the nature of the infrastructure in the 
energy sector, and it makes it extremely difficult to deploy 
cybersecurity protocols that fit every single niche, but are 
the checklist standards that are applied so broadly to 
cybersecurity in the energy sector enough to ensure security in 
mainstream and custom energy applications? And if so, what are 
the proactive security approaches that are being taken to 
require more thorough testing in research by qualified agencies 
or institutions to improve that cybersecurity in the energy 
section?
    Ms. Evans. Well, I believe based on what my colleagues have 
talked about here is, is that when we look at what standards 
are that they are the floor and that that would be the minimum 
of what you have to do.
    If you take a risk-based approach, and you're really 
looking at what are the consequences for the activities that 
you have, you'll get to either complying with the checklist or 
complying with the standard, really understanding what your 
environment is.
    We have cybersecurity research and development which is 
cybersecurity for energy delivery systems which is our research 
and development group which is underneath us which is actually 
taking that question but also leaping ahead and saying how do 
we skate to the puck, not necessarily think about where we are 
today but where we want to be in the future.
    And then, how do we then test supply chain risk management? 
How do we then embrace these types of things that have been 
highlighted today by the members dealing with cars that have 
computers in them so that you can go and do a lot of different 
things with your cars, but that's another attack vector.
    So I think a lot of the things that we've been talking 
about in the sense of urgency is how do you raise the cost to 
our adversaries? Anyone who is in this space, using any type, 
to your point, there's not going to be a silver bullet here. 
There's going to be multiple ways but what we really have to do 
is raise the cost of what everybody is doing because it's too 
easy for our adversaries to exploit several things.
    We've talked briefly about phishing, but that's really a 
cheap way to get in. That is what our research and development 
is doing. Then, as the results of that, where we partner with 
industry, people that are participating in this sector, how do 
we then share the information out to the right stakeholders 
because this is all owned by private sector.
    The government doesn't own this infrastructure. What we 
have to do from a national security perspective is share the 
information so that it can facilitate whether there needs to be 
a regulation or whether there needs to be a resiliency 
standard. But they need to benefit from the research and 
development that the Department is doing.
    Senator Hyde-Smith. Absolutely.
    And one other question, if I may, Madam Chairman?
    How would you decide what types of non-federal 
infrastructure should be defined as critical for these 
purposes?
    Ms. Evans. This is a specific thing that we really are 
looking at and researching now, to your point.
    What we are looking at is through our program called Citrix 
which is really dealing with supply chain risk management. And 
this is something that I'm sure my colleague from SEL would 
also talk about is where has industry gone because you want to 
stimulate a market economy, right? And you want to have 
competition and you want to be able to have all those things. 
So where is the greatest bang for the buck to be able to 
address what we have today? Where are people investing? But 
then, how do we then take the information and this is again 
what we're going to do for the manufacturing institute, is take 
the knowledge that we get from our labs where they are doing 
incredible work, and then being able to transfer that out into 
industry so that industry can incorporate it into their product 
road maps.
    So we do work very closely with the Office of Technology 
Transfer within the Department so that we can take these things 
that we are learning here and what is the best way to transfer 
it back out into the industry so that as people are entering 
into the energy sector, we know that they are incorporating 
these types of things so that as our industry partners are 
buying solutions, they could then say, okay, these things have 
gone through these types of analysis. If I buy this over this, 
I'm reducing the risk in my enterprise. That--we are 
accelerating that and working through that with the national 
labs to get it out to the industry.
    Senator Hyde-Smith. Based on the critical areas?
    Ms. Evans. In multiple areas because there's current ones 
that they have to comply with.
    So, for example, we're working with Pacific Northwest Lab 
on a risk-based model because one question that always gets 
asked by industry is for every dollar I invest, how much risk 
am I going to reduce?
    They have to comply with the CIP standards. So, the risk 
model is saying, okay, let's look at these attack trees 
associated with the CIP standards. We should be able to answer 
that question so that a CEO of a board or a utility or a 
municipality can say if I do this investment, this is how I can 
reduce risk.
    The national labs have a lot of modeling that's going on, 
and what I'm trying to do is take that knowledge that they have 
and use it in a way that the energy sector then has the tools 
that they need to make those decisions. So that's where we 
started.
    Senator Hyde-Smith. Great. Thank you so much.
    Thank you, Madam Chairman.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair and Ranking Member 
Manchin. This has been a great hearing so far. I thought I was 
just going to come down and say the words, Chairman Chatterjee, 
and get a little focus there on your new leadership. But, good 
to see you.
    Our colleagues have just been so excellent on illuminating 
this problem. I could not be more supportive of the concept. I 
think that we need to do something very, very aggressive here. 
It is good to see that, from various aspects, people understand 
that.
    Just for clarification, our National Guard is doing red 
teaming in the State of Washington on utilities. So, it does 
exist somewhere in this.
    But I wanted to get to this question about regulation 
versus innovation and get your thoughts, Mr. Whitehead. I 
understand my colleague, Senator Risch, was here earlier 
claiming that the CEO of your company was a genius and that 
definitely puts you into a high atmosphere of challenges.
    But you understand how important it is, and you mentioned 
your security clearance. How can we work with everybody here to 
create that system so that we are not just making up a bunch of 
things that we want all the utilities to do, and then five 
months from now, we see a new threat and they are doing this 
little list that we asked them to do and now there is a new 
list?
    The changing nature of the attacks is really the game, 
right? It is like the path of least resistance. They are just 
going to start and as we keep advancing, they are just going to 
continue.
    How do we get this system in place where we are getting the 
data and information shared and seeing real-time effects of 
these attacks? Because I feel like that is what everybody on 
this Committee wants. I think that is why you are hearing the 
urgency from everybody and now the opportunity is here. How do 
we really define how to get that communication system?
    Mr. Whitehead. Well, thank you, Senator, for the question.
    I think there's two parts. There was the innovation versus 
regulation and from my perspective as a supplier of equipment 
for the critical infrastructure is there's a lot of reporting 
up that happens to various agencies but what we don't see then 
is a lot of reporting back down to us. So, there seems to be a 
diode or a one-way communication.
    I think working with Mr. Robb and other folks, we had a 
great conversation at breakfast this morning is how do we 
integrate what we're doing, as a supplier we're not, you know, 
part of the members of the various information sharing 
committees. How do we get on to those committees?
    I don't think it's hard. And I think we're at a point in 
the evolution of these information sharing committees where we, 
as suppliers, critical suppliers, certainly to the U.S. 
infrastructure, that we have a seat at the table for being able 
to share that information.
    I'd make an argument and I've joked with our folks is I'll 
stand up a team that's ready to talk, have a phone call at 
eight o'clock every single morning, 7 days a week, 365 days a 
year, even if it's a 15 minute phone call that says, hey 
there's nothing going on or vice versa, hey, you know, asset 
owners and suppliers of equipment, this is what you should be 
looking out for today.
    You know, it doesn't have to be a long conversation. I 
mean, that's one idea that I thought of. I don't think it takes 
a lot of effort. Certainly, you need to--how you classify your 
information and who can be on those phone calls. I'm sure 
there's words or ways to work out those particular scenarios.
    But I think it's setting up organizations that can be very 
quick, very nimble disseminating information. And it can be 
both ways. I could get on that phone call and say, hey you know 
what? I had a customer call me up. They saw this weird thing 
and that could be reported up and shared amongst the community 
at that level.
    Senator Cantwell. What level of security clearance do you 
think that is?
    Mr. Whitehead. I think it can be all the way from 
unclassified where it's just hey, look out for this kind of 
data packet coming where you don't have to attribute to sources 
or methods of how that came out, just be looking for this kind 
of traffic, all the way to if you're in this particular area 
and based on, you know, sources and methods. Maybe some people 
do need to know that level. But I think it can go scale from 
all different levels of classification.
    Senator Cantwell. Assistant Secretary Evans or Chairman 
Chatterjee, what about this other way of looking at this, which 
is: do we have anything where we are assessing the technology 
as it exists and focusing more on creating a security standard 
that we think should be deployed?
    For example, I am a big fan of Schweitzer Electronics 
because they are doing a lot of great work in this area and, I 
believe, are on some cutting-edge technology. But let's say 
it's somebody else, some other company, do we have any 
operation within the Federal Government now, either from the 
Department or from FERC's perspective, that says we highly 
recommend the deployment of this technology?
    It is almost like the constant hygiene aspect of this 
problem. And is there a function within our government where we 
are making the recommendations that these things be deployed 
more rapidly or is somebody just making the judgment call that 
this is where we need to be?
    Ms. Evans. So, the heart of the issue of what you're 
talking about is the innovation while you're maintaining the 
existing environment. And so, yes, that environment exists. And 
we've talked about it briefly, but it is with the Electricity 
Subsector Coordinating Council, the Government Coordinating 
Council which is all of the whole of government approach as 
well as the Oil and Natural Gas Subsector Coordinating Council.
    So we specifically, as the Department of Energy, my 
research and development program underneath me looks into the 
future, like evaluating equipment. That's what we're doing from 
a supply chain risk management.
    The Department itself, our OCIO function looks at this as 
well because we have the PMAs also in there.
    When we take a risk-based approach as a Department based 
on, for example, we had to do Kaspersky but there are other 
things that we know based on the current environment and the IT 
world. We share that out with the sector and say, look, the 
Department has taken this approach based on these types of 
things. We do it at a classified level. We also attempt to do 
it at an unclassified level.
    I will share one thing that, maybe, the Committee would 
want to think about this going forward is as we have shared 
what the Department is doing one of the issues that has been 
raised up from the sector as a whole is, is that as they look 
at it to take an action as a collective against this to not, 
say for example, they did not do something with a specific 
company that is in this sector, one of the issues that they 
have raised is the potential of an anti-trust type of issue 
that would come against the sector as a whole because they were 
taking a risk-based approach.
    Senator Cantwell. This is why I am interested in whether we 
have the function within the Federal Government because look, 
we all travel, and guess what we do if we are going to travel 
somewhere? We look online and say, well, what are the threat 
assessments of traveling to that region of the world--and it is 
posted there.
    So what I am interested in is the issue about the 
regulatory side taking a long time, and the challenge here is 
that it is constant and evolving.
    What we want though is some part of the Federal Government 
that says, oh, yes, these software-defined network (SDN) 
solutions should be deployed. We are not even saying whose, 
just that these are five solutions we think all utilities 
should be deploying if they want the hygiene of their networks 
to be state-of-the-art or--
    Again, I know that gets a little tricky, but at the same 
time, I just feel like this is what we are trying to do in the 
State of Washington. We are trying to use the National Guard 
and a coalition of people to define what the state-of-the-art 
hygiene is to make people's systems secure.
    I would just think if we are going to stay out of whatever 
we think is the--I am where my colleague from Maine is and that 
is that with the evidence as clear as it is, we need to do a 
lot more.
    But one thing we need to do a lot more on is to start 
having the Federal Government define what is the state-of-the-
art technology that they think utilities should be deploying, 
even if it is a recommendation and not mandated.
    Ms. Evans. Absolutely.
    Senator Cantwell. But I think we are over here researching 
and exploring and I just feel like we should be upgrading the 
checklist of things that people should be doing at least every 
six months.
    Ms. Evans. I would say that we, that the Department and the 
Secretary's viewpoint is in line with what you are suggesting, 
that is what we view for the long-term play with the Advanced 
Manufacturing Institute.
    But in the short run of what we are doing is how my office 
is going to do that evaluation, work through the programs that 
we have and the intent is for us to publicize from a voluntary 
perspective, looking at everything that has been envisioned up 
on this Hill is if you voluntarily participate over here and we 
have NIST and we have all these other things, here is the 
information about these programs. Here are things of how you 
can make an informed decision. That information would feed into 
this. We are specifically looking at these are the specific 
systems and components that are built into the current 
infrastructure.
    The other effort that the Department is doing is through 
the Grid Modernization Initiative and the GMLC, which is Grid 
Modernization Lab Consortium, because a lot of the information 
that you're talking about, they develop. Then how do I then 
transfer that out and say these are the best practices? This is 
how you can do it. This is how you can leap ahead.
    We just had a briefing yesterday on an initiative that has 
been three years in the making that is really going to help 
leap ahead the industry as a whole. And now we're figuring out 
what's the best way to get it out into industry so that the E-
ISACs and the industry as a whole can use it.
    Senator Cantwell. Alright.
    Madam Chair, I know my time is expired.
    The Chairman. Thank you, Senator Cantwell. You have always 
pushed the Committee to focus on these cyber issues and your 
leadership on this is greatly appreciated. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Mr. Robb, how do you answer the question when somebody 
says, is our energy infrastructure, is our grid, safe and 
secure from cyberattacks? How do you know? Are we safe? How do 
you know?
    Mr. Robb. Senator, it is the issue that keeps us all up at 
night. And what I can represent very confidently is that the 
industry takes this threat very, very seriously. We have, 
through the mandatory cyber critical infrastructure protection 
standards, we've a very strong foundation of defense in the 
grid. We can always do better on the information sharing and 
analysis of emerging attack vectors and so forth to build real-
time situational awareness and defense of specific threats, but 
the foundational security of the grid in this country is very, 
very strong.
    Senator Hoeven. How do you know?
    Mr. Robb. Because we have mandatory standards in place. We 
audit the utilities against those standards and they're subject 
to a financial penalty if they are found in violation of those 
standards.
    Senator Hoeven. How do you make sure on the one hand you 
are integrated, but on the other hand if there is a problem 
somewhere it does not invade the whole system?
    Mr. Robb. One of the great design features of the North 
American Electric Grid is that it's sectionalized in many ways 
and the whole purpose of the standards is to ensure that if 
something bad does happen to some part of the grid, that it's 
contained and does not propagate across it. So that if an 
incident did occur in New Jersey or something like that, it 
stays there, right, as opposed to compromising the entire 
system. That's the whole design principle of the reliability 
standards we have.
    Senator Hoeven. Do the participants in the grid, writ in 
large, have the ability both to participate but also to protect 
themselves from a threat that might enter the system?
    Mr. Robb. I'm sorry, I didn't catch the question, sir.
    Senator Hoeven. For all the participants in the grid, do 
they have both the ability to be integrated and operate 
interoperably but also the ability to segregate themselves, if 
necessary, in the case that there is some type of virus or 
other threat or problem?
    Mr. Robb. Yes, sir, they do.
    Senator Hoeven. And you are able to check that and verify 
it? We are not guessing like some of the financial hybrids 
before the market meltdown?
    Mr. Robb. No.
    Senator Hoeven. All the regulators thought that, didn't 
they? Remember, they all said all those financial hybrids, they 
had risk management all squared away? But it didn't work. So 
how do you know?
    Mr. Robb. Well, there's always potential for a failure in 
any complex system. What I can say is that the standards that 
are in place with which industry must comply and again, subject 
to audit and penalty if not, provide that base level of 
security and support.
    Senator Hoeven. And you feel the regulatory oversight and 
the audits are sufficiently transparent, understandable and so 
forth that it is verified, that we do have that security in 
place and if there is a weakness it is identified in a timely 
way?
    Mr. Robb. I believe so, sir.
    Senator Hoeven. Can be addressed?
    Mr. Robb. Yes.
    Senator Hoeven. Mr. Chatterjee, good to see you again.
    Mr. Chatterjee. Good to see you, Senator.
    Senator Hoeven. Based on your new role and your years of 
experience here on the Hill, have you seen any legislation out 
there that you think would be most helpful in this 
cybersecurity area that we should be advancing or do you know 
any concepts for legislation that you think we ought to be 
advancing that could, that would help and be beneficial?
    Mr. Chatterjee. I think, and I mentioned this earlier, you 
know, the workforce issues are critical. Finding cyber 
expertise, dealing with information sharing is essential to 
this and identifying that workforce, all of us making this 
societal investment and making sure people are educated.
    There's been a lot of talk about cyber hygiene and the 
vulnerabilities within organizations tend to be driven by human 
beings in this space, and we saw some of the supply chain 
issues that arose as a result of that.
    And so, I think anything we can do to get expertise on this 
area throughout the country, throughout stakeholders in 
industry, and I understand there's a bill regarding a federal 
rotational cyber workforce program, introduced by the Senator 
from North Dakota. I'm certainly supportive of that concept, 
because it is hard to find and train good employees.
    Senator Hoeven. You have not lost your touch.
    [Laughter.]
    You are a good man.
    And certainly, getting our noms through and getting 
positions filled would be helpful too, wouldn't it?
    Mr. Chatterjee. Yes, sir.
    Senator Hoeven. That would be beneficial, right?
    Secretary Evans, being a northern border state, obviously, 
we work with Canadians all the time. We love them. Greatest 
ally ever. How do we make sure that we are managing the cyber 
risks and threats across border in a good, solid, integrated 
way?
    Ms. Evans. Sir, we do work in partnership with NERC. I'm so 
glad we can say NERC, instead of saying the whole name. And so, 
we do work in partnership with them. I know the Canadians 
actively participate in that.
    The Office of Electricity also is working on what the, I 
want to make sure I get the NAERM right, which is North 
American Energy Resiliency Model, of how that is all going to 
play across the board.
    Senator Hoeven. Yes.
    Ms. Evans. That does involve our Canadian partners in that 
as well.
    Again, it's making sure that we can share the information 
with them. They are our allies. We need to make sure that we 
can share the information and that we understand the shared 
risk.
    I would also go back to some of your questions about how do 
we know?
    The reason why we do the exercises and, again, all of us 
have talked about the exercises, is because we think we have 
the best plans in place until we have to actually exercise 
them.
    Senator Hoeven. Right.
    Ms. Evans. And so, the exercises really point out if we 
have any weaknesses so that we can identify that that's why our 
partners here talk about several of the exercises that we 
participate in so that we can highlight that because we don't 
want to get into that situation of now we're in a crisis and we 
find out we don't have the best plan.
    Senator Hoeven. Is there any legislation vis-a-vis Canada 
that you have seen that is helpful or that is on your screen?
    Ms. Evans. I believe the way that the Hill is looking at 
this in multiple different ways. There are things that you are 
talking about from the workforce perspective that is very 
helpful. That's been outlined already by Chairman Chatterjee.
    The things in supply chain risk management and how you're 
looking at that and giving us the longer-term view of how we 
need to put those programs in place would allow for us to do 
that.
    And I think the industry and I would share this with my 
colleagues if they have any insight into that, but what I hear 
often is, is that they want to make sure the bidirectional 
happens but they are concerned as they continue to move through 
this and we get into very interactive information sharing that 
the proper protections are in place as they take actions as a 
collective.
    Senator Hoeven. Thank you.
    The only other thing I would offer is Major Keber, thanks 
for your service. We appreciate it.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Hoeven.
    Just a couple quick things. I know we are wrapping up. I 
know that Senator King wanted to add on.
    I wanted to just go a little bit further. Senator Cantwell 
raised the same issue that I had raised initially with you, Mr. 
Whitehead, in terms of innovation versus regulation and the 
inherent conflict there.
    We have had a lot of discussion about the mandatory 
standards we have in the electric sector. We are the only ones 
here that have mandatory and enforceable cyber standards, and 
we know what the violations can lead to.
    We had a witness here before the Committee last year, a 
gentleman by the name of Rob Lee of Dragos. He was a hands-on 
cyber expert. He suggested to us that utilities are perhaps 
overly focused on the legal aspects of compliance and sometimes 
these mandatory NERC standards that basically cause you to 
check the box to make sure that you are meeting the standard, 
that is, focus on compliance rather than the creativity, the 
innovation that we need in order to do all this. We are going 
to use our limited bandwidth because we have talked about the 
fact that we do not have enough people in this area that are 
the smart, forward-thinking, leaning-in brains to make this 
happen. So we set our resources to just the compliance side. He 
actually suggested a three-year cooling off period to let the 
utilities focus on cyber threats instead of, he called, the 
cyber lawyers.
    Comment on that, if you will, Mr. Robb and Mr. Whitehead.
    Mr. Robb. Sure.
    So, I hear that a lot. I'm not sure I believe it. For the 
most part the standards that we have in place for cybersecurity 
don't require any unnatural acts. They really codify what good 
utility practice is in these spaces.
    And I think the fact of the matter in the conversations 
that I always have with the CEOs, and I believe that the CEOs 
of organizations get this, that a secure operation is going to 
be compliant with the standards that we have in place. It's not 
really an either/or. It's a yes/and.
    Again, when I look at the number of violations that we have 
of CIP standards and the root causes, they typically result, 
the root causes are typically on things like management culture 
and so on and so forth. So that, there's really a lot that the 
CEOs can do to drive a secure and compliant organization. They 
work hand in glove. It's not a tradeoff that someone has to do 
x or y. And if that tradeoff is ever presented, our advice to 
the entities is always do what you need to do to be secure, and 
we'll deal with the compliance aspects later. And if there's 
something silly in the compliance world, we'll deal with that 
in an appropriate way.
    The Chairman. Mr. Whitehead.
    Mr. Whitehead. Yeah, I'll have a little fun with Mr. Robb 
for just a second as I think you can----
    [Laughter.]
    ----it's okay--I think you can be compliant but not 
necessarily secure, right?
    The Chairman. Right. My point.
    Mr. Whitehead. People can check all the boxes and you could 
still have a challenge or an issue.
    So you always have to be careful. I think that's what, I 
know Rob pretty well, Rob Lee. I think that's what he was 
really alluding to is that what you want to make sure is that 
you're not stifling creativity or taking the responsibility out 
of somebody really thinking about what they're doing, right?
    Just filling in checkboxes is not going to make you secure, 
maybe it makes you compliant, but it's not going to make you 
secure. So requiring people or certainly giving them the 
ability to think about how their particular situation, their 
particular networks, their particular critical infrastructure 
is designed and operating and then how security overlays on top 
of that, I think, is the critical aspect to keeping our assets 
all secure. I think that's it.
    And Senator Cantwell, thank you for SDN. One word of 
caution, SDN is a great technology. We've got solutions for it. 
What I like the idea of is that hey, the government is saying 
this is a great technology, Mr. Utility, you should look at 
this. What I would hate though is to say, Mr. Utility, you have 
to deploy this technology because I've got 800 engineers back 
in Pullman coming up with the next greatest thing and I would 
hate to say, you know what, everybody has to focus on SDN when 
we've just come up with a great new solution for protecting our 
critical infrastructure.
    The Chairman. Thank you for that.
    Senator King, you wanted to jump in?
    Senator King. Please.
    Chairman Chatterjee, I know it just slipped your mind. You 
wanted to mention to Senator Hoeven S. 174, the Risch-King 
bill, as an important step in the right direction. Would you 
say yes to that?
    Mr. Chatterjee. I would absolutely say that additional R&D 
about possible defenses is always helpful, and I very much 
encourage those efforts.
    Senator King. Thank you. I appreciate that.
    Madam Chair, I just wanted to make a final point on this 
issue.
    All we have been talking about today is protecting 
ourselves, patches, standards, hygiene, all of those kinds of 
things. The missing part of this discussion, and it is true 
governmentwide, is deterrence. Our adversaries who are 
attacking us in this way, thus far anyway, have not felt that 
there was a price to be paid for those attacks, that we were a 
cheap date.
    That part of what we have to develop and this is going on 
in a number of different forums over the next year or so and 
indeed the Administration has produced some good work on this, 
but we need to be talking about how we make, how we change the 
calculus for our adversaries when they decide to venture into 
our electric grid or our gas pipelines, that there will be a 
price to be paid? It may be cyber. It may be sanctions. It may 
be other kinds of responses. But thus far, there has not been a 
doctrine or a strategy in this country that deters these kinds 
of attacks as there is in other areas of our national security.
    So I would just point out that we will never be able to 
patch our way out of this threat. We would be like a boxer who 
was really skilled at ducking and bobbing and weaving, but if 
you can never punch back, you are not going to win the fight.
    I just want to mention that as a larger background issue 
that is involved in this question, whether it is this kind of 
cyberattack, a cyberattack on our election system, or any other 
intrusion of that kind, our adversaries have to begin to 
realize that there will be a cost to them for attacking this 
country in this way. Until they do so, they are going to 
continue to do it, as they have over recent years.
    Thank you.
    The Chairman. I certainly concur it is an important part of 
it, and I think we want to be in the position that we are not 
reactive in this deterrent aspect, that we have made quite 
clear from a proactive perspective that there are consequences.
    Senator Cantwell.
    Senator Cantwell. Yes, Madam Chair, if I could just 
quickly.
    I don't know if we have put our finger on it this morning 
yet but I do think, to Mr. Whitehead's point, yes, we want to 
keep innovating. That is the challenge. We want to keep 
innovating.
    I do not even know if there is a private sector Good 
Housekeeping seal that somebody is putting on for utilities. I 
think that is the key, right, is that and, at least as it 
relates to the FERC role and the agency roles, is are there 
entities out there that are doing their job and doing their 
best?
    At the same time, as you said, you are going to develop, 
your engineers are going to--first of all, the threat is to 
keep up on them.
    So I certainly agree with you, Senator King, that there is 
a lot that we should be doing on an international basis to 
basically stop the arms race that is happening on cyberattacks. 
And we should be joining other nations in promulgating--we 
should be spending as much time on this as we are on this 
discussion because if we were, I guarantee you, we would get 
someplace.
    This security is critical, and we have to get other nations 
to say that you do not tolerate these kinds of actions by 
governments and you basically are going to stop people from 
engaging them.
    But anyway, back to this. I just think we need more 
discussion about, Madam Chair, what kind of rapid response 
system can we establish, and how do we know when we get to a 
point where we really think people should deploy something we 
think is viable--without representing a software state--is an 
ongoing discussion.
    I think from the consumer perspective they are like, oh, 
another upgrade, and I am supposed to do that? Yet, every 
upgrade really does get us a greater layer of security. That is 
what each system does. Not that it does not have problems with 
it, it too has bugs. I just think we need to keep talking about 
how we establish this communication back to the government 
about what we should be deploying. I think it is tricky and 
hard, but I don't think it is impossible.
    I think having all that information flow on a constant 
basis would be very helpful to making us more--again, a few 
bobs and weaves would not hurt us right now while we are 
getting this larger thing in place.
    Thank you.
    The Chairman. Thank you, colleagues, and thank you to the 
members of the panel. I think it has been a very interesting 
discussion, a very important discussion.
    But I do harken back to Senator McSally's comments that she 
could close her eyes and this could have been the same 
conversation 19 years ago. We do not want to be sitting here or 
have those who follow us 19 years from now be sitting here 
asking ``what were they doing in 2019 here?''
    There is a heightened sense of urgency for action. It has 
to be coordinated. We have to recognize that here in Congress 
we have jurisdictional issues that we wrestle with. We have to 
figure out those issues just as it needs to be figured out in 
our agencies and in the private sector. There is simply too 
much on the line.
    We appreciate all the engagement. We look forward to FERC's 
technical conference and the continued, very important 
dialogue.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:08 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
